<html>
<title> - NOMINATION OF MS. NEERA TANDEN, OF MASSACHUSETTS, TO BE DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET</title>
<body><pre>[Senate Hearing 117-025]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 117-025

NOMINATION OF MS. NEERA TANDEN, OF MASSACHUSETTS, TO BE DIRECTOR OF THE 
                    OFFICE OF MANAGEMENT AND BUDGET

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

 February 10, 2021--HEARING ON THE NOMINATION OF MS. NEERA TANDEN, OF 
  MASSACHUSETTS, TO BE DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   




             Printed for use of the Senate Budget Committee
             
             
             
             
             
             
             

NOMINATION OF MS. NEERA TANDEN, OF MASSACHUSETTS, TO BE DIRECTOR OF THE 
                    OFFICE OF MANAGEMENT AND BUDGET
                    
                    
                    
                    
                    
                    
                    

                                                       S. Hrg. 117-025
 
NOMINATION OF MS. NEERA TANDEN, OF MASSACHUSETTS, TO BE DIRECTOR OF THE 
                    OFFICE OF MANAGEMENT AND BUDGET

=======================================================================

                                HEARING

                               before the

                        COMMITTEE ON THE BUDGET

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

 February 10, 2021--HEARING ON THE NOMINATION OF MS. NEERA TANDEN, OF 
  MASSACHUSETTS, TO BE DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  


             Printed for use of the Senate Budget Committee
             
             
             
             
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
44-901                WASHINGTON : 2021 
              
             
             
             
             
                        COMMITTEE ON THE BUDGET

                   BERNARD SANDERS, Vermont, Chairman
PATTY MURRAY, Washington             LINDSEY O. GRAHAM, South Carolina
RON WYDEN, Oregon                    CHARLES E. GRASSLEY, Iowa
DEBBIE STABENOW, Michigan            MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     PATRICK TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             RON JOHNSON, Wisconsin
JEFF MERKLEY, Oregon                 MIKE BRAUN, Indiana
TIM KAINE, Virginia                  RICK SCOTT, Florida
CHRIS VAN HOLLEN, Maryland           BEN SASSE, Nebraska
BEN RAY LUJAN, New Mexico            MITT ROMNEY, Utah
ALEX PADILLA, California             JOHN KENNEDY, Louisiana
                                     KEVIN CRAMER, North Dakota
                Warren Gunnels, Majority Staff Director
                  Nick Myers, Minority Staff Director
                  
                  
                            C O N T E N T S

                              ----------                              

                                HEARING

                                                                   Page
February 10, 2021--Hearing on the Nomination of Ms. Neera Tanden, 
  of Massachusetts, To Be Director of the Office of Management 
  and Budget (OMB)...............................................     1

                OPENING STATEMENTS BY COMMITTEE MEMBERS

Chairman Bernard Sanders.........................................     1
Ranking Member Lindsey Graham....................................     3

                               WITNESSES

Testimony of Neera Tanden, of Massachusetts, To Be Director, 
  Office of Management and Budget................................     8
    Prepared Statement of........................................    38
Statement of Honorable Amy Klobuchar, A United States Senator 
  from the State of Minnesota....................................     5
Statement of Honorable Cory A. Booker, A United States Senator 
  from the State of New Jersey...................................     7

                   MATERIALS SUBMITTED FOR THE RECORD

Statement of Biographical and Financial Information Requested of 
  Presidential Nominee Ms. Neera Tanden To Be Director of the 
  Office of Management and Budget................................    40
Pre-Hearing Questions from Chairman Bernard Sanders with Answers 
  by Neera Tanden................................................    63
Pre-Hearing Questions from Ranking Member Lindsey Graham with 
  Answers by Neera Tanden........................................    65
Pre-Hearing Questions from Senator Kevin Cramer with Answers by 
  Neera Tanden...................................................    70
Pre-Hearing Questions from Senator Mike Braun with Answers by 
  Neera Tanden...................................................    71
Post-Hearing Questions from Budget Committee Members with Answers 
  by Neera Tanden:...............................................    73
    Senator Charles E. Grassley..................................    74
    Senator Ron Wyden............................................    79
    Senator Mike Crapo...........................................    82
    Senator Debbie Stabenow......................................    86
    Senator Sheldon Whitehouse...................................    88
    Senator Mark R. Warner.......................................    92
    Senator Jeff Merkley.........................................    93
    Senator Patrick Toomey.......................................    94
    Senator Ben Sasse............................................    98
    Senator Chris Van Hollen.....................................   102
    Senator Kevin Cramer.........................................   105
    Senator Mike Braun...........................................   112
    Senator Ben Ray Lujan........................................   114


THE NOMINATION OF MS. NEERA TANDEN, OF MASSACHUSETTS, TO BE DIRECTOR OF 
                  THE OFFICE OF MANAGEMENT AND BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2021

                                       U.S. Senate,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:00 a.m., via 
Webex and in Room SD-608, Dirksen Senate Office Building, 
Honorable Bernard Sanders, Chairman of the Committee, 
presiding.
    Present: Senators Sanders, Murray, Wyden, Stabenow, 
Whitehouse, Warner, Merkley, Kaine, Van Hollen, Lujan, Padilla, 
Graham, Grassley, Crapo, Toomey, Johnson, Braun, Scott, Sasse, 
Romney, and Kennedy.
    Staff Present: Warren Gunnels, Majority Staff Director; and 
Nick Myers, Republican Staff Director.

         OPENING STATEMENT OF CHAIRMAN BERNARD SANDERS

    Chairman Sanders. Let me thank everybody for being here and 
everybody else who is with us virtually. I am delighted to call 
the very first meeting of the Budget Committee to order.
    As all of you know, we are here today to consider the 
nomination of Neera Tanden to become the next Director of the 
Office of Management and Budget. We all know that that position 
is an extremely important one. It is responsible for preparing 
the President's budget, for reviewing Federal regulations, and 
for providing the proper oversight of Federal agencies. No 
small tasks.
    For the past 10 years, Ms. Tanden has served as the 
president and Chief Executive Officer (CEO) of the Center for 
American Progress (CAP). Prior to that she worked in the United 
States Senate as a Legislative Director and served in the Obama 
and Clinton administrations as a Senior Domestic Policy 
Adviser. Good morning, Ms. Tanden, and thanks very much for 
being with us.
    Before I go further, let me mention that we have some new 
members of this Committee, and let me welcome Senators Lujan, 
Padilla, Sasse, and Romney to the Budget Committee.
    This Committee has very broad jurisdiction dealing with any 
policy that impacts the Federal budget. That is a lot of stuff 
out there. And at a time when our country faces an 
unprecedented series of crises, this will be a very active 
Committee in which we will be exploring many issues, including 
trying to get an understanding of what is happening to the 
working class of this country, the middle class, and lower-
income Americans. And I hope we are going to have those good 
discussions in a civil manner. The American people need to hear 
different points of view. They need to get an understanding of 
why what is happening in this country is, in fact, happening.
    In general, we do not do a good job as Members of Congress, 
the media does not do a good job, and I hope this Committee 
will have civil, serious debates about some of the most 
important issues facing America.
    We are going to explore what it means that in this country 
today the people on the top economically are doing phenomenally 
well, while so many tens of millions of Americans are 
struggling right now in America to put food on the table, to 
pay their rent, or to have the income they need to go to a 
doctor in the midst of a pandemic.
    Today in America we are living through the worst economic 
crisis since the Great Depression and the worst public health 
crisis in more than 100 years. Real unemployment is over 11 
percent. Over 23 million Americans are either unemployed, 
underemployed, or have given up looking for work altogether.
    Unbelievably, more than half of American workers are living 
paycheck to paycheck and are just one medical emergency, one 
car accident, one lost paycheck away from financial disaster.
    In America, disgracefully, we have the highest rate of 
childhood poverty of almost any major country on Earth. The 
COVID-19 pandemic is still raging across the Nation and is 
responsible for taking the lives of more than 450,000 
Americans, and obviously, all of us hope that we are going to 
address that crisis as rapidly as possible. But, meanwhile, in 
the midst of that pandemic, over 90 million Americans are 
either uninsured or underinsured, and we remain the only major 
country on Earth not to guarantee health care to all of our 
people.
    We have got a climate crisis that is ravaging nations all 
over the world, including the United States of America. We have 
an affordable housing crisis where so many of our people are 
literally paying half of their incomes for rent. We have a 
racial injustice crisis in America today that this Congress is 
going to have to address, and we have an immigration crisis as 
well.
    And given all of these unprecedented crises, it is 
absolutely imperative that we have an OMB Director who has the 
courage at this moment in American history to think big, not 
small. We need an OMB Director who is prepared to stand up to 
powerful special interests who dominate the economic and 
political life of this country, including what goes on here in 
Congress. We need an OMB Director who can work with the 
President and Congress to create an economy that works for all 
of us and not just wealthy campaign contributors.
    Now, Ms. Tanden, at a time when the wealthy and large 
corporations have extraordinary influence over the economic and 
political life of this country, I must tell you that I am 
concerned about the level of corporate donations that the 
Center for American Progress has received under your 
leadership. According to the Washington Post, since 2014 the 
Center for American Progress has received at least $38 million 
from corporate America, including Wall Street and every special 
interest that I can think of. So before I vote on your 
nomination, it is important for me and the members of this 
Committee to know that those donations that you have secured at 
CAP will not influence your decision-making at the OMB.
    Further, I would like to hear how you plan to work with 
this Committee and the Congress to enact the promises that 
President Biden made to the American people. I think one of the 
reasons that so many people are disillusioned with politics in 
America, have given up on democracy, politicians make promises 
and they run away from those promises. President Biden made a 
series of promises, and I am going to work with him to make 
sure that we implement those promises.
    President Biden promised to raise the minimum wage over a 
period of several years to at least $15 an hour. He promised to 
make public colleges and universities tuition-free for working 
families and to substantially reduce student debt. He promised 
to lower the Medicare eligibility age from 65 down to 60 and to 
also cut the outrageously high prices of prescription drugs in 
America. President Biden promised to rebuild our crumbling 
infrastructure and create millions of good-paying jobs and 
combat climate change. He said he would fight to make pre-K 
universal, to make sure that every 3- and 4-year-old in America 
has the quality child care and pre-K education that they need.
    President Biden promised to make sure that every worker in 
America has at least 12 weeks of paid family and medical leave. 
And, yes, President Biden promised that he would make sure that 
corporations like Amazon began to pay their fair share of 
taxes.
    The next OMB Director will play a major role in determining 
whether those policy proposals succeed or whether they fail, 
and I want to hear from you this morning how you plan to work 
with the President, this Committee, and the Congress to 
implement those promises that the President made.
    Lastly, what I simply want to say is that over the years I 
have worked with Mike Enzi, who was the Chairman, and Mike and 
I had a very, very good relationship, and I look forward to 
having an excellent relationship, a cordial relationship with 
the Ranking Member, Lindsey Graham, whom I have known for many, 
many years. I hope, again, that this Committee can be the 
Committee that has--look, we have differences of opinion. We 
all know that. But let us have a civil debate, and I promise 
you that we are going to talk about the most important issues 
that face your constituents. So let us do that, and with that 
let me introduce the Ranking Member, Lindsey Graham.

          OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Well, thank you very much, Mr. Chairman. 
Congratulations on being Chairman of the Committee. Two 
thousand twenty. was a heck of an election cycle. It will soon 
be over, hopefully, in my lifetime, and we can move on with the 
Nation's business.
    I have talked to Bernie several times about what we can do 
together, and there actually is a lot we can do together. I 
look forward to that.
    Senator Whitehouse is sort of on the fence about climate 
change, but if we can ever get him out of his shell, I would 
like to talk about what happens if General Motors by 2035 
actually converts to all electrical vehicles. I mean, that is 
not, you know, some left-wing group saying that. That is 
General Motors saying that in 2035, I think it is--is that the 
date? Or 2050. I cannot remember now--that they are going to 
stop producing gasoline-driven cars.
    Well, what does that mean for the country, why they are 
trying to do that, and it gives us a chance, I think, to talk 
about big things. And there are going to be differences. 
Senator Sanders went down a checklist of big things, and one of 
my goals is to make sure that all these big things that we are 
talking about other people paying for, that we have a sense of, 
you know, how do you pay for all this stuff? And from a 
Republican point of view, we cannot really say a whole lot 
about running up the debt because we did it, too. But, 
eventually, it is going to take people like Bernie and Lindsey 
and the rest of us around here to figure out what to do about 
the debt one day. I do not know when that day comes. But there 
will be a day of reckoning, and I know Senators Whitehouse and 
Kaine and others have been pretty open-minded about reforms. 
From my point of view, that would be revenue, too, to make sure 
that the revenue is consistent with what we need up here to 
operate the Government.
    But from Senator Sanders, I just want to tell you that we 
are going to have some real stark differences about 
reconciliation. We are going to have some very pointed 
differences. But the one thing I want to say about Bernie is 
that you believe what you are saying. You have been the most 
consistent voice in this body, and the one thing I respect is 
people who believe what they are saying. Senator Whitehouse, 
you believe what you are saying about climate change. And the 
question is: Can we find some common ground given what we 
believe?
    We have some very talented people on our side of the aisle, 
and I would just challenge all of us to fight for our--
peacefully, that is the new word now--fight for your point of 
view, but see if there is some common ground here, because the 
country needs it.
    As to the nominee, I have known her for a while. She is a 
very nice person, but not the unity pick that I was looking 
for, anyway.
    So Ms. Tanden was receiving corporate donations, which is 
fine with me. I do not mind if you receive corporate donations 
as long as they are lawful and fully disclosed, and I think all 
of us receive donations from different groups. That does not 
mean you are owned because somebody gives you money, so I am 
not going to hold that against you. But you have been a very 
partisan figure. You have been a very tough figure when it 
comes to political discourse. And that is okay, too. But 
calling Mitch McConnell ``Moscow Mitch'' is probably not a very 
good thing to say, suggesting that the Minority Leader is 
somehow in the pocket of the Russians.
    ``The GOP's capacity for evil knows no bounds.'' I am sure 
a lot of people in America believe that. I am not one of them.
    So Senator Sanders was Hillary Clinton's opponent, as we 
all know, so her scorn was not limited to Republicans. ``Russia 
did a lot more to help Bernie than the DNC's random internal 
emails did to help Hillary.'' ``Oddly, when Russia was trying 
to elect Trump, they did not attack Bernie Sanders. They chose 
to help him. They did this in the Democratic primary. They 
attacked the other candidate.'' I doubt if Bernie was Russia's 
pick either.
    So the point I am trying to make here is that in a time of 
unity, we are picking somebody who throws sharp elbows, and 
there is going to be a consequence for that, hopefully, on our 
side.
    As to her management capability, she referred to us the 
Glassdoor review of her time running the Center for American 
Progress. Again, she is a talented person who has come a long 
way in life, but here are some of the reviews.
    June 2019, one out of five stars. ``Terrible,'' 
``absolutely horrible.''
    October 2016, ``cool work but absurd management,'' 
disapproves of CEO.
    April 2016, ``influential organization, poorly managed.''
    September 2012, two out of five stars, ``bad management.''
    February 13th, two out of five stars, ``great experience, 
terrible management.''
    Two out of five stars, April 2017, disapproves of CEO, does 
not recommend, ``what a mess.''
    So all I can say is that this is not the unifying pick that 
I was looking for for this position.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Lindsey.
    Amy Klobuchar, our Senator from Minnesota, is here. Senator 
Klobuchar, thanks for being here, and I gather you want to 
introduce Ms. Tanden.
    Senator Klobuchar. I do.
    Chairman Sanders. Please do.

 STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES SENATOR 
                  FROM THE STATE OF MINNESOTA

    Senator Klobuchar. I want to thank you, Senator Sanders, 
Senator Graham. Congratulations on your new roles. To the 
Committee, all gentlemen today, I know there are a few women on 
the Committee. But it is my honor to be here to speak to you. 
The work of this Committee right now could not be more 
important. I think you know what is happening with our country, 
and I admire the leadership role that you, Senator Sanders, are 
taking right now, and this entire Committee.
    I am proud to be here today to introduce my friend, Neera 
Tanden, a woman who is smart, organized, and tenacious. These 
are good qualities for the job, and if confirmed, she will make 
history as the first woman of color to lead the Office of 
Management and Budget. And I appreciate--I am sure she will 
address some of your concerns, Senator Graham, but I do want to 
note that a lot of people have said a lot of things on social 
media, and probably people in this room, that they regret. And 
so I want to give you just a different sense of this woman and 
what she stands for.
    First, I want to acknowledge the people that are here with 
Neera and that know well her perseverance and her ability to 
balance a budget firsthand. That would be her husband, Ben, who 
is with us; her 18-year-old daughter, Alina, over there. At the 
earlier hearing we had with Homeland Security with Senators 
Peters and Portman, which went well, her mother, Maya, was 
there with us as well. And I know she is watching from a 
distance today, as well as Neera's 15-year-old son, Jaden.
    It is an honor to tell you Neera's story. Not only is her 
story characterized by hard work and determination, but it 
actually shows the power of the American dream. Neera is the 
daughter of Indian immigrants and grew up in Bedford, 
Massachusetts. Raised by a single mom, her mom, Maya, Neera 
learned the value of perseverance at a very young age. Maya, 
her mom, put her kids first. She relied on food stamps and 
public housing. She was on her own.
    But then she found new footing and began working as a 
travel agent, forging her family's path to the middle class. It 
is her mother's work ethic and drive that I see in Neera, and 
it is those same qualities that I know will serve her well as 
our next Director of the Office of Management and Budget.
    As she started out as a travel agent, Neera's mom may not 
have ever thought that her daughter would one day be asked to 
serve in the Cabinet of the President of the United States. But 
after years of never taking no for an answer and setting high 
expectations for her family, somehow Neera ended up before us 
today.
    Growing up, Neera understood the circumstances of her 
family's struggle and saw what worked and what did not work. 
Because of that personal connection, she from a young age 
wanted to pursue public service.
    Throughout her career, she has shown a passion for 
improving people's lives. She brings years of Government 
experience, including working in the Senate as then-Senator 
Clinton's Legislative Director. And while people may have 
disagreements about Senator Clinton, I think everyone knows and 
I know you know, Senator Graham, that her time here was marked 
by working across the aisle, getting things done, respect for 
other members regardless of difference in beliefs. And Neera 
led that legislative effort.
    Neera understands, like you do, that inscribed in any 
budget is a set of priorities, choices about ensuring that 
everyone gets a fair shot. She knows that the work of the 
Office of Management and Budget shapes the lives of millions of 
American families. She is an experienced manager who will be 
ready to help take the helm of the Office of Management and 
Budget on day one.
    In her near decade at the Center for American Progress, she 
led teams in promoting, as Senator Sanders noted, bold 
solutions to problems, including the pandemic. And, no, not 
everyone in this room will agree with every solution she has 
put forth in her career. I do not agree with every solution she 
has put forth. But what matters, my friends, is her devotion to 
the country and her ability to do the job. That is why 
President Biden picked her.
    Chairman Sanders, Ranking Member Graham, I know you both 
recognize the severity of the coronavirus pandemic, and this 
Committee will and continue to play a key role in taking it on, 
and you will have a partner in Neera.
    She graduated from UCLA and Yale Law School. As I noted, 
she worked for former Senator Clinton. She has the background, 
and she knows how to forge practical solutions.
    As President Biden put it succinctly when he announced her, 
she is ``smart as hell.'' And maybe that is a good way to end. 
I know that all members of this Committee can trust her to hear 
you out, to negotiate when necessary, and to do so in good 
faith. She will be a phenomenal Director, and I urge the 
Committee to give her utmost consideration and respect and 
support her nomination.
    Thank you very much, Chairman Sanders and Ranking Member 
Graham and all members of the Committee.
    Chairman Sanders. Senator Klobuchar, thank you very much 
for those remarks.
    Now we have a brief statement, prerecorded, from Senator 
Booker.

STATEMENT OF HONORABLE CORY A. BOOKER, A UNITED STATES SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Booker. Thank you for giving me this what I 
consider a really precious opportunity to introduce President 
Biden's nominee to serve as the Director of the Office of 
Management and Budget, Neera Tanden.
    I want to first just be candid with you all. I have known 
Neera for decades. I do not like to admit that because it shows 
that both of us are old, but we go back a very long way. Neera 
is a friend in the truest and deepest sense of the word, and I 
want to tell you, when we first met and went to school 
together, she struck me as someone who had a powerful trifecta. 
She is a person of deep heart, authentic caring and empathy. 
She is a person of fierce intellect who I have learned a lot 
from, even back then in our days of study. And then, finally, 
she is a person who has this spirit, this abundance of love for 
this Nation, its ideals and its principles, and she has lived a 
life where she has been fiercely adherent to the highest ideals 
of patriotism, of service, of being there for others.
    I know that Neera's public career has been not only 
impressive, but she has lived a life of extraordinary impact. 
She was involved in both the Clinton and the Obama 
administrations. She served in the White House, in the Senate, 
in the Department of Health and Human Services, and most 
recently, she has led the Center for American Progress, 
providing critical analysis and policy research that has 
informed many of my colleagues and my office itself.
    But part of what has made her so impactful is that, to 
Neera, policymaking is not an academic exercise. It is a 
powerful force that has deeply personal implications on the 
lives of millions of people. She understands the decisions we 
make all have consequences, and often unintended consequences, 
and that we and the work we do, which she honors so much, has a 
potential to change life trajectories and make this Nation more 
real for all of her people.
    Now, Neera, there is a great poem that is by Langston 
Hughes about a mother giving a message to her son, and she says 
in that poem, the line is, ``For me life ain't been no crystal 
stair.'' In other words, life has not been easy. Neera's climb 
to impact and influence has been difficult. Neera was raised by 
a single mother who emigrated from India like so many others 
seeking a better life. America was a light unto her nation, in 
her nation, and Neera's family came here. Neera has said that 
when her mom could not find work, they had to rely on America's 
social safety net to keep them afloat. They relied on food 
stamps. They relied on rental assistance. And because they had 
the support they needed when they were struggling, Neera's mom 
was able to get them on their feet, and she got a job and she 
bought a house, and she achieved so much of the American dream. 
But as we all know, the greatest part of the American dream is 
seeing your children do better than you, go on to heights that 
you might not have thought possible.
    As my mom often said, behind every successful child is an 
astonished parent. Well, Neera, she went on to college and then 
law school with the likes of people like me. She has led a life 
that has given her mother great pride and maybe even a little 
astonishment.
    Neera saw firsthand what this country can do when it 
invests for its people, and in her example before us today, we 
see what a country that invests in its people can do, can 
accomplish.
    As leader of the Office of Management and Budget, Neera 
will be tasked with overseeing the office responsible for 
implementing the Biden administration's agenda and making the 
Government work for people. During a time of a dual crisis in 
public health and the economy, Neera will be asked to help 
oversee our Federal Government's response and plan to rebuild 
and restore. She will be tasked with helping to ensure that the 
American people are being served by an accountable Government, 
that it is transparent, and that it is truly committed to them.
    If confirmed, Neera will accomplish this American mission. 
She will offer the kind of vision that is reflective of her 
brilliance, of her huge heart, and of her commitment and spirit 
for this country. She will continue to be truly a public 
servant and a servant leader. She will lead with empathy. She 
will lead with skill and understanding of our economy and of 
our country's challenges. And she will lead with love. She will 
lead with love of country and all of her citizens.
    I urge my colleagues to swiftly confirm Neera Tanden's 
nomination.
    Thank you so much for giving me this opportunity to share 
with you why I so believe in my friend. Thank you.
    Chairman Sanders. Thank you, Senator Booker.
    Ms. Tanden, under the rules of the Committee, nominees are 
required to testify under oath. Please rise, if you could. Do 
you swear that the testimony that you will give the Senate 
Budget Committee will be the truth, the whole truth, and 
nothing but the truth?
    Ms. Tanden. I do.
    Chairman Sanders. If asked to do so and if given reasonable 
notice, will you agree to appear before this Committee in the 
future and answer any questions that the members of this 
Committee might have?
    Ms. Tanden. Absolutely.
    Chairman Sanders. Thank you. Please be seated. Now it is 
appropriate for you to give your opening statement.

 TESTIMONY OF NEERA TANDEN, OF MASSACHUSETTS, TO BE DIRECTOR, 
                OFFICE OF MANAGEMENT AND BUDGET

    Ms. Tanden. Thank you, Chairman Sanders, Ranking Member 
Graham, and members of the Committee. I am humbled and honored 
to be here today as President Biden's nominee to serve as 
Director of the Office of Management and Budget. Chairman 
Sanders, I am grateful for your visionary leadership, and, 
Ranking Member Graham, I look forward to working with you if I 
have the privilege of being confirmed.
    I want to begin by thanking Senators Booker and Klobuchar 
for their gracious introductions. And I also want to recognize 
two members of my family who are here with me today--my 
husband, Ben, and my daughter, Alina--as well two who are not: 
my son, Jaden, and my mother, Maya.
    I owe my presence here today to their love and support and 
to the grit and resilience of my mother: an immigrant from 
India who was left to make it on her own in America with two 
young children after her divorce from my father.
    Back then she faced a harsh choice: stay in the United 
States and rely on the social safety net, or return to India 
where she knew her children would face the stigma of divorce. 
She had faith in this country and made the decision--I believe 
the courageous decision--to stay.
    We relied on food stamps to eat and Section 8 vouchers to 
pay the rent. At school, I remember being the only kid in the 
cafeteria line who used 10-cent vouchers from the Free and 
Reduced Lunch Program. I remember using food stamps at the 
grocery store.
    Within just a few years, my mother found a job, and a few 
years later she was earning a middle-class salary. Soon she was 
able to buy a home and eventually see her children off to 
college and beyond.
    I spend every day of my life grateful for a Nation, and a 
Government, that had faith in my mother and in me, that 
invested in our humanity and gave me a fair shot to pursue our 
potential.
    As I sit before this Committee, I am mindful that my path 
in life would never have been possible without the budgetary 
choices that reflected our Nation's values--many of them made 
in the very agency I am now nominated to lead.
    That recognition and gratitude has been the North Star of 
my career. I have spent the past 20 years at the forefront of 
some of our country's most important policy debates. And for 
the past decade, I have led a major think tank that engages 
many areas that OMB handles every day--from budget plans, to 
regulatory proposals, to efforts to make our Government more 
effective.
    My experience also extends to both the legislative and 
executive branches, having served in the U.S. Senate, at the 
White House under President Clinton, and at an agency under 
President Obama.
    I believe that experience provides me with a strong 
foundation to lead the OMB.
    I also know that the role of OMB Director is different from 
some of my past positions. Over the last few years, it has been 
part of my role to be an impassioned advocate. I know there 
have been some concerns about some of my past language in 
social media, and I regret that language. And I also want to 
say I express that regret to Senator Sanders and other members 
of this Committee. I understand that the role of OMB Director 
calls for bipartisan action, as well as nonpartisan adherence 
to facts and evidence.
    OMB will play a vital role in addressing many of the 
country's biggest challenges, from beating back the virus, to 
delivering aid that will help ensure a strong economic 
recovery, to ensuring we build back better than before.
    If I am privileged to serve as Director, I would ensure 
that OMB uses every tool at its disposal to effectively deliver 
for America's working families, for small businesses, and to 
the many communities struggling right now.
    I would vigorously enforce my ironclad belief that our 
Government should serve all Americans--regardless of party--in 
every corner of the country.
    I would ensure that our budget reflects the values of a 
Nation built on hard work, human dignity, common purpose, and 
boundless possibility.
    And I would work in good faith with all members of this 
Committee to tackle the challenges, the grave challenges, 
Americans are facing: the COVID pandemic, as I said, the deep 
economic pain in our country, climate change, racial inequity, 
and the broad issue of inequality in our country.
    Let me finally say this: As a child in line with my mom at 
that grocery store--feeling shy and a bit embarrassed as we 
stood in line and my mom was using foods stamps instead of 
money--I never dreamed that I would be sitting in this august 
room, with great leaders like all of you. I am so incredibly 
grateful for the opportunities this country has given me. And I 
am profoundly honored by the possibility to serve and to help 
ensure that we provide real opportunities for those who come 
after us.
    Thank you for inviting me before this Committee, and I look 
forward to your questions.

       [The prepared statement of Ms. Tanden appears on page 38]


    Chairman Sanders. Ms. Tanden, thank you very much. And as 
the son of an immigrant, I understand some of what you are 
talking about.
    Let me begin by picking up on a point that the Ranking 
Member, Lindsey Graham, made, and that is, we understand that 
we are a divided Nation, and on this Committee there are people 
who have very, very different political points of view. But I 
think most of us understand that it is important we debate the 
issues and try to minimize the level of personal and vicious 
attacks that seem to be so prevalent all over this country 
today.
    I have a letter in front of me, which I am sure you have 
seen, from a number of Republican Members of the House 
concerned about some of the things you said as the head of CAP. 
But, of course, your attacks were not just made against 
Republicans. There were vicious attacks made against 
progressives, people who I have worked with, me personally.
    So as you come before this Committee to assume a very 
important role in the United States Government, at a time when 
we need serious work on serious issues and not personal attacks 
on anybody, whether they are on the left or the right, can you 
reflect a little bit about some of your decisions and the 
personal statements that you have made in recent years?
    Ms. Tanden. Yes, Senator. I really appreciate that 
question, and I recognize that my language and my expressions 
on social media, you know, cause hurt to people, and I feel 
badly about that and I really regret it. And I recognize it is 
really important for me to demonstrate that I can work with 
others, and I look forward to taking that burden. And I 
apologize to people on either the left or right who were hurt 
by what I have said.
    Chairman Sanders. As you know, it is not a question of 
being hurt. We are all big boys--and I do not see too many 
girls here, but big boys who get attacked all the time. But it 
is important that we make the attacks expressing our 
differences on policy and that we do not need to make personal 
attacks, no matter what view somebody may hold. So can we 
assume that as the Director of the OMB we are going to see a 
different approach, if you are appointed, than you have taken 
at CAP?
    Ms. Tanden. Absolutely. And I would say, you know, social 
media does lead to too many personal comments, and my approach 
will be radically different.
    Chairman Sanders. Good. Thank you.
    All right. Let me get to another issue that concerns me 
very much. I happen to believe that big money interests have an 
undue influence over the economic and political life of our 
country, and that too often campaign contributions are what 
determines policy rather than the needs of ordinary Americans. 
And according to the Washington Post, since 2014 the Center for 
American Progress has received roughly $5.5 million from 
Walmart, a company that pays its workers starvation wages; 
$900,000 from the Bank of America; $550,000 from JPMorgan 
Chase; $550,000 from Amazon; $200,000 from Wells Fargo; 
$800,000 from Facebook; and up to $1.4 million from Google. In 
other words, CAP has received money from some of the most 
powerful special interests in our country.
    How will your relationship with those very powerful special 
interests impact your decision-making if you are appointed to 
be the head of OMB?
    Ms. Tanden. Senator, I thank you for that question. It will 
have zero impact on my decision-making. I am actually--CAP took 
a number of positions that disagreed vigorously with the policy 
decisions of those institutions. But I appreciate this 
question, and it is my role--it will be my role to ensure that 
I am only serving the interests of the American people, the 
administration, and its agenda to address rising inequality and 
address the needs of working families.
    Chairman Sanders. Ms. Tanden, will you at this point commit 
to doing what President Biden and I and many others want to see 
happen, and that is, help us move to end starvation wages in 
America by raising the minimum wage over a period of several 
years?
    Ms. Tanden. Absolutely.
    Chairman Sanders. Will you do what President Biden and I 
and many other Members of Congress want, and that is, move to 
make public colleges and universities tuition-free for families 
under $125,000 a year?
    Ms. Tanden. Yes. As you know, President Biden has committed 
to make college affordable, truly affordable, tuition-free for 
middle-class families.
    Chairman Sanders. President Biden has stated that he would 
like to see the eligibility age for Medicare go from 65 down to 
60. Is that something you will help him implement?
    Ms. Tanden. Yes, absolutely, and we know that that can 
actually help save money because it will over the long term 
recognize--lower the costs, per beneficiary costs, of Medicare.
    Chairman Sanders. We pay by far the highest prices in the 
world for prescription drugs. That is an issue I intend to take 
a hard look at as Chairman of this Committee. President Biden 
has indicated that he wants Medicare to negotiate with the 
pharmaceutical companies to lower drug prices. Is that 
something you will help us move forward on?
    Ms. Tanden. Yes.
    Chairman Sanders. President Biden has said that he wants to 
guarantee 12 weeks of paid family and medical leave. Is that 
something you will help us move forward on?
    Ms. Tanden. Yes, absolutely, and I have worked for over 20 
years on the issue of paid leave.
    Chairman Sanders. Okay. President Biden wants to provide 
universal pre-K education for every 3- and 4-year-old in this 
country and make child care more affordable for working 
families, an issue of enormous importance in general, 
especially now in the pandemic. Is that something you will help 
us move forward on?
    Ms. Tanden. Yes, absolutely, and I think over the long term 
those investments help us address both racial and income 
inequality.
    Chairman Sanders. President Biden has said that he wants to 
triple Title I funding for public schools to make sure that 
lower-income kids in this country are able to get the education 
they need. Will you help us move forward in that direction?
    Ms. Tanden. Yes, absolutely.
    Chairman Sanders. I know this is not necessarily 
universally held on this Committee, but I happen to believe 
that climate change is an existential threat to our country and 
the world and that we have the opportunity to create millions 
of good-paying union jobs as we transform our energy system. Is 
that something you will help us move forward on?
    Ms. Tanden. Absolutely, and as you know, President Biden 
agrees with you that climate change is an existential threat.
    Chairman Sanders. Lastly, I think where there is an area of 
agreement--and Lindsey and I have chatted how we can work 
together--I do not think anybody on your side denies that our 
infrastructure is crumbling and that we can create millions of 
good jobs, rebuilding our roads and bridges and wastewater 
systems and water systems, et cetera. Will you help us go 
forward creating the jobs rebuilding our crumbling 
infrastructure?
    Ms. Tanden. Yes, absolutely, and I hope we can work in a 
bipartisan manner on infrastructure.
    Chairman Sanders. Good. Lindsey, it is yours.
    Senator Graham. Thank you, Bernie.
    One, congratulations to your family. You have lived the 
American dream, seem to have an incredible background, and I 
want to congratulate you.
    So let us talk about policy. In the education debate, is 
there any room for school choice in the Biden administration?
    Ms. Tanden. Thank you, Senator. Thank you for your 
question. So the President has supported charter schools, and 
to the extent that we make sure that those charter schools are 
delivering, that they are accountable to the public, that they 
are as accountable as public schools. And so there is room for 
charter schools, absolutely, but they need to be accountable, 
and I think many charter school advocates recognize that.
    Senator Graham. Anything beyond charter schools?
    Ms. Tanden. Well, I mean, obviously, in the country today, 
people, parents have access to private schools. I think it is 
one of the inequities we actually have to recognize, that 
upper-income families have access to private education, and 
sometimes those have much more resources than public schools.
    Senator Graham. Okay. So let us talk about fair share of 
taxes. What is the fair share? What should be the corporate 
rate in America? What is fair for corporations to pay?
    Ms. Tanden. The President has supported restoring the 
corporate rate to, I believe, ordinary--to a higher rate. I 
believe it is 35 percent, but I should double-check that.
    Senator Grassley. 28 percent.
    Ms. Tanden. 28 percent. I am sorry.
    Senator Graham. Well, let us get this right.
    Ms. Tanden. You are right, 28 percent.
    Senator Graham. Well, that is what Grassley says now. Do 
not let him speak for the Biden administration.
    Do you think 35 percent is a fair rate for corporations or 
is that too high?
    Ms. Tanden. I would follow the President's policies on 
these issues.
    Senator Graham. Okay. What should the individual rate be?
    Ms. Tanden. It depends on the income of the individual.
    Senator Graham. If somebody makes $10 million.
    Ms. Tanden. I believe we should restore it back to 39.6.
    Senator Graham. Is that enough?
    Ms. Tanden. On the income, yes. There are other----
    Senator Graham. So 39.6 is fair in your belief?
    Ms. Tanden. Well, my role is to address President Biden's 
policies, and he has----
    Senator Graham. I am just talking about you as an 
individual. Would you go up higher? Would the Center for 
American Progress support individual rates beyond 39.6, do you 
think?
    Ms. Tanden. My role in this, if I have the privilege of 
being confirmed, my role is to address the President's 
priorities. And the President's priority has been to restore it 
to a 39.6-percent rate.
    Senator Graham. Okay, so that is fair. Do you believe 
raising the minimum wage to $15 an hour will cost millions of 
Americans their job?
    Ms. Tanden. Actually, the most recent data on this--and 
there have been studies over the last few years, 2018, 2019--
indicate that the minimum wage--analyses that have looked at 40 
years of minimum wage increases have found that the elasticity 
rate is different than previous understandings, and that 
actually job loss rates are relatively low.
    Senator Graham. So you think 1.5 million people losing 
their job would be relatively low?
    Ms. Tanden. No. Actually, what I am saying is that more 
recent studies--I appreciate that the Congressional Budget 
Office (CBO) looked at several years----
    Senator Graham. But you do not accept it.
    Ms. Tanden. I think that there are--I think that the 
important thing is to be guided by facts and evidence, and 
there has been a discussion about more recent data being more--
--
    Senator Graham. Have you ever run a restaurant?
    Ms. Tanden. I have not run a restaurant.
    Senator Graham. Okay. Well, you need to go talk to people 
who have because I think they will give you some facts.
    Ms. Tanden. I would say respectfully, Senator, we should 
also talk to the waiters and waitresses.
    Senator Graham. Yeah, I think they want their jobs. I think 
that the tip--doing away with the tip wage is probably bad for 
them. The best thing you can do for a waiter and a waitress is 
open up a new restaurant and people hire you at higher wages 
because a new restaurant in town needs good workers. So that is 
the way I believe to increase wages. But this is why we have 
elections.
    Simpson-Bowles. Do you support a Simpson-Bowles approach to 
dealing with the debt?
    Ms. Tanden. I think the Simpson-Bowles approach--I think 
there are deep challenges with the Simpson-Bowles approach. I 
think what we should really decide is what----
    Senator Graham. Do you support that concept of trying to 
find a bipartisan way to deal with the debt?
    Ms. Tanden. Oh, I think we should try to find bipartisan 
ways to----
    Senator Graham. Do you support----
    Ms. Tanden. --deal with the debt.
    Senator Graham. --entitlement reform?
    Ms. Tanden. That is the idea of the Simpson-Bowles. I think 
there were some things that we found were not----
    Senator Graham. Do you support entitlement reform?
    Ms. Tanden. The President, President Biden, has put forward 
particular ideas on Social Security. One is to raise the 
payroll cap for people earning over $400,000.
    Senator Graham. All right.
    Ms. Tanden. That is an idea he has put forward to address 
Social Security solvency, which would also address the debt.
    Senator Graham. Okay. I got you. So, real quick, on 
immigration, here is what has happened thus far in the first 3 
weeks. We stopped building the wall; we have halted 
deportations; we canceled the ``Remain in Mexico'' policy; 
withdrew from asylum agreements with Triangle Nations; we 
eliminated advance vetting for terrorists, reinstated catch-
and-release; we are considering canceling the public charge 
rule; we are ending travel restrictions with countries with 
national security concerns.
    Do you believe that the sum total of these policies will 
lead to more illegal immigration?
    Ms. Tanden. I do not, and I would be guided by facts and 
evidence about----
    Senator Graham. Okay. Here are the facts: so a 178-percent 
increase in single adults coming across the border this year 
versus last; 50-percent increase in unaccompanied minors. So 
the fact that you do not see this as a problem is very 
disturbing.
    Thank you very much, Mr. Chairman, Bernie.
    Chairman Sanders. Thank you very much, Lindsey.
    We are now going to hear via video from Senator Murray. 
Senator Murray?
    Senator Murray. Well, thank you very much, Mr. Chairman, 
and let me start by saluting you on becoming Chair of this 
Committee. I know you will do great things in this role. I also 
want to congratulate Senator Graham on becoming Ranking Member. 
I look forward to working with you both.
    Now, to our nominee, Ms. Tanden, I think she is an 
excellent choice for this role, and I was thrilled when then-
President-elect Biden announced her as his nominee to lead the 
Office of Management and Budget. I have known and worked 
closely with Neera for many years, and I think she will excel 
as OMB Director because she brings both practical experience as 
well as knowing how to get things done, as well as the personal 
experience that is so important on the programs behind these 
budget numbers and how important they are to our families and 
to our communities. And now we need more than ever both sets of 
experiences.
    Neera brings a deep familiarity with a broad array of 
policy, including areas of great importance to me such as 
health care and child care and paid leave and income 
inequality, as well as extensive managerial experience from 
overseeing a very large think tank.
    I know she will also bring a high level of energy and 
engagement to the role of Director that has been sorely 
missing. I had many complaints about Russ Vought as Director of 
OMB; chief among them was the complete lack of engagement and 
leadership shown by him at OMB during the coronavirus pandemic. 
I can assure my colleagues that these will not be issues if Ms. 
Tanden is confirmed as Director.
    Whether or not you agree with her on every issue, you will 
not be able to question Neera's passion, her knowledge, or her 
engagement. This pandemic has put a spotlight on the everyday 
challenges that many families face, from finding affordable 
quality child care, to having access to paid leave so they can 
take care of themselves or their loved ones without fear of 
losing a paycheck or their job; simply earning a living wage 
for themselves and their families; and [inaudible] for 
communities of color.
    So my question to you today, Ms. Tanden, consists of two 
parts. First, can you tell me how you see this administration 
prioritizing investments in these core areas for families? 
Second, [inaudible] the economic case for prioritizing and 
making those investments?
    Ms. Tanden. Thank you so much, Senator. I would note that 
as we experience the deep economic challenges we are facing, 
women are disproportionately being impacted by that: 4.2 
million people are leaving the workforce, 2.4 million women are 
leaving the workforce primarily because they are facing high--
they are taking a disproportionate impact--the recession is 
having a disproportionate impact on caregiving. Women are 
leaving because they need to take care of children who are not 
in school, amongst other reasons. And so I do think that is a 
reason why it is important that we invest in child care, that 
we have robust paid leave programs. Those programs are part of 
the American Recovery Plan, but it is also--I do think those 
are important areas for us to prioritize as long-term 
investments. As part of the President's Build Back Better 
agenda, he has put forward a caregiving agenda that has long-
term direct support for child care and paid leave in which the 
United States--I would just note on paid leave the United 
States would rejoin 99 percent of countries on the planet if we 
adopted a universal paid leave program.
    Senator Murray. Thank you for that. And real quick, before 
I close, I do want to briefly raise an issue of critical 
importance to my home State, which is the cleanup of the 
Hanford nuclear site. We talked about this in our calls, but 
the Federal Government has a moral and legal obligation to 
clean up the Hanford site and to make sure that our workers are 
doing that very difficult cleanup work given the resources and 
protections they need. So I look forward to working with you in 
partnership to make sure the Hanford mission is on a cost-
effective trajectory, without compromising that critical 
cleanup mission.
    Ms. Tanden. Thank you, Senator, and I would very much look 
forward to working with you on that issue.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Sanders. Senator Murray, thank you very, very 
much.
    Next up is Senator Grassley.
    Senator Grassley. Congratulations, Senator, for your 
chairmanship. Congratulations to you.
    The issue I want to bring up I discussed with you on the 
phone, and pretty soon you will have 3 minutes to figure out 
what you are going to answer because I only have one question.
    In 1981, President Reagan issued an Executive order issuing 
a common-sense directive. Regulations promulgated by Federal 
agencies should have more benefits than costs. I think that 
most Americans would agree that the benefit of a particular 
action should outweigh the cost of taking that action. 
Regulations should be a net positive for society and should 
have more benefits than doing nothing or taking another action. 
The emphasis on cost and benefits was further codified through 
Executive Order 12866 issued under the Clinton administration. 
This order also required agencies to submit significant rules 
to the Office of Independent Regulatory Analysis for review 
accompanied by a cost-benefit analysis. I do not think any of 
this would strike the average American as unreasonable.
    However, President Biden recently issued a memo entitled 
``Modernizing Regulatory Review.'' This memo threatens the 
important role that cost-benefit analysis plays in the 
development of a regulation and creates a framework that could 
unleash a torrent of burdensome and overreaching regulations 
under the guise of improvement to society that cannot be 
measured or proven. It instructs OMB to update its guidance to 
agencies to ``fully account for regulatory benefits that are 
difficult or impossible to quantify.'' It also instructs OMB to 
provide suggestions on how the regulatory review process can be 
used to promote vague concepts such as social welfare, racial 
justice, and human dignity--all goals that we should all seek, 
I guess, but it is kind of hard to quantify it. There is no 
mention of taking into account more nonquantifiable benefits--
or costs, only benefits. The Executive order seems designed to 
take nonpartisan, objective analysis out of the rulemaking 
process in favor of subjective claims of social benefit that 
could be used to justify virtually any cost, economic or 
otherwise, on the backs of everyday Americans. This sounds like 
writing any regulation for any rationale can be justified, and 
I think it opens the floodgates.
    So here comes my question: Existing OMB guidance already 
outlines how costs and benefits should be quantified and 
compared. It outlines a process for agencies to consider impact 
on a regulation that may be hard to put into numbers and how to 
evaluate those costs and benefits against more concrete.
    So to you, in what ways is the current guidance 
insufficient to capture qualitative costs and benefits? And 
going forward, how will agencies be instructed to compare 
quantitative and nonquantitative benefits and costs?
    Ms. Tanden. Thank you, Senator Grassley, for your question, 
and I would just note that President Biden's recent Executive 
memorandum does not limit the power of Executive Order 12866, 
which outlined cost-benefit analysis. So it is my orientation 
and it is the process behind--the process here would indicate 
that we continue cost-benefit analysis. But the memorandum 
outlines why it is important to have more information, and I 
think that is really the idea behind this Executive memorandum, 
is to ensure that we have up-to-date and more information.
    And if I may, I might just give an example of what I think 
the Executive memorandum is driving at. So as part of the 
Americans with Disabilities Act, there were rules promulgated 
around access to bathrooms and ensuring that people with 
disabilities have access to bathrooms. And there is obviously a 
cost-benefit analysis to access to bathrooms, but there is also 
a dignity interest in people with disabilities having access to 
bathrooms. And I think that is really what the Executive 
memorandum is trying to outline, is that we take into account 
that dignity interest, which, you are absolutely right, is 
intangible. And I would agree with you, when we are discussing 
issues like those kinds of intangible qualities, that we would 
look at them both on the cost and benefit side. But I also 
think we should analyze how rules are impacting 
subpopulations--communities of color, rural communities. 
Sometimes regulations can disproportionately impact rural 
communities, and we should understand what kind of impact that 
has.
    Senator Grassley. This is not a question, and I will close 
with this. I think in our telephone conversation you spoke 
about transparency.
    Ms. Tanden. Yes, absolutely.
    Senator Grassley. And transparency on this would be very 
important because that sort of transparency is only the way to 
which I can judge you are following what you just told me.
    Ms. Tanden. Absolutely, and I would commit to you, Senator 
and members of this Committee, to be as transparent as 
possible, not only on the rulemaking process but in budget 
discussions and elsewhere regarding the whole work OMB does.
    Senator Grassley. Thank you.
    Chairman Sanders. Senator Grassley, thanks very much.
    Senator Wyden is going to join us virtually. Ron?
    Senator Wyden. Thank you, Chairman Sanders, and it is great 
to see you in this position. You have a chance to work with 
Senator Graham. And suffice it to say, Ms. Tanden, I have 
worked with you often in the past, and it is very good to have 
you here today. The time is short, so I am going to dig right 
in.
    Millions of Americans are unemployed this morning, and 
expanded unemployment insurance expires on March 14th. Across 
the political spectrum, there is a recognition that in helping 
those laid off through no fault of their own, expanded 
unemployment insurance packs an exceptional bang for the 
economic relief buck. It is weekly. It is spent on groceries, 
on rent, on medicines locally, and it literally has kept 
communities afloat since the spring of 2020.
    The program has got a major limitation, though. It allows 
politicians to pluck an arbitrary end date for coverage. With 
that, it satisfies the political agenda of the politician, but 
it does not meet the needs of those who are suffering. To meet 
the needs of those who have been laid off through no fault of 
their own, it is time to tie unemployment insurance to real 
economic conditions on the ground. And it just defies the 
principle of good Government to empower politicians rather than 
empowering the unemployed who, through no fault of their own, 
overwhelmingly want to work and want to get ahead in the 
economy and help their families.
    So I proposed legislation to fix this, and it is through 
something called ``stabilizers,'' which is really fancy 
Government talk to say when unemployment is high, the insurance 
benefit should reflect what is needed to pay for rent and 
groceries and essentials. When you have better times, the 
benefit can taper off. And I decided last spring we had to do 
this because the unemployment system is in a time warp. It 
really goes back to the 1930s. So what I am talking about is a 
crucial next step for the program.
    My question to you, Ms. Tanden: What can you do as OMB 
Director to help us secure this crucial unemployment insurance 
reform?
    Ms. Tanden. Thank you so much, Senator, and I do recognize 
how critical it is that we have more stability and more 
security in essentially our social safety net, and having 
automatic stabilizers would provide more stability to families. 
It would provide more security to families. And, obviously, 
there would be more planning we could do.
    I appreciate that unemployment cliffs have become an 
action-forcing event, but I consider that an unfortunate aspect 
of where we are. And I think we have seen in this pandemic 
particularly that people are suffering because of completely 
extraneous events like a global pandemic. So if there is a time 
to move forward with automatic stabilizers, it is in this 
moment where so many people are subject to so much pain at the 
whims of a pandemic and how it is raging. And as we know, right 
now it is raging with significant impact across the country.
    Senator Wyden. I appreciate your answer, and you are, if 
anything, pretty diplomatic, because this idea of forcing folks 
laid off through no fault of their own to kind of lurch from 
one cliff to another--we saw this over Christmas time, and we 
saw on the TV news parents were giving up their meals in order 
to help their kids. We have got to have a good Government 
approach along the lines of what I have described, and I 
appreciate your answer.
    Let me ask one other question, if I might. Rural 
communities were hurting even before the pandemic, and now the 
rollercoaster they are on, particularly in the rural West, has 
just been devastating in terms of their being able to lay the 
foundation for a brighter future.
    Senator Crapo, Senator Merkley, Senator Risch, and I have 
made a proposal for reforming a law that we wrote with the help 
of the Budget Committee sometime ago to reform the Secure Rural 
Schools Program and, in effect, to take it off this rural 
rollercoaster where, for example, the County Roads Program 
cannot even predict what kind of funds it might have and 
established an endowment program to try to grow the payment for 
the counties.
    My question here is: Will you work with us on this 
bipartisan proposal that has received an enormous amount of 
support from rural counties all across America?
    Ms. Tanden. Absolutely, Senator, I really appreciate----
    Chairman Sanders. Ms. Tanden, if you can make your remarks 
brief, because we have got a 12 o'clock impeachment engagement 
we have got to get to, and I want to hear from everybody. So 
please----
    Ms. Tanden. Yes, absolutely, Senator, I appreciate the 
bipartisan leadership on this Committee on this issue.
    Senator Wyden. Thank you.
    Chairman Sanders. Senator Braun.
    Senator Braun. Thank you, Mr. Chairman.
    We had a very engaging conversation. I think it went over 
half an hour and covered a broad array of topics. I think it is 
worth it for the public record to cite a few things. I have 
come from Main Street, built a business, a real little one, 
that over many, many years was able to turn into that American 
dream. From my point of view, a lot of the policies that were 
in place had kind of hit the sweet spot pre-COVID. A lot of 
that had to do with, I think, unleashing the entrepreneurial 
spirit across the country, looking at the productive side of 
our economy in a way that is different from how you treat big 
corporations that generally have had their way here in terms of 
impacting not only statute, Tax Code.
    The rest of us have none of that, and I think it would be 
wise to look at understanding the difference I think we have 
talked about when it comes to personal income tax, which is 
currently all thrown into one category where wage and 1099 
income is treated the same as business income. One is liquid; 
one is illiquid. And sooner or later, we are going to have to 
have the discussion for those here, which would be most of 
everyone that love the place for what you can do through it.
    I have been amazed mostly in the little over 2 years of how 
many businesses, entities, all organizations that are 
interdependent with the Federal Government think that it is 
just going to go on the way it is. And I advise them maybe look 
at getting a new business partner until we recognize that we 
borrow over 20 percent of what we spend here, over half of our 
structural $1 trillion deficit--and I am sure it is more than 
that now--driven by Social Security, Medicare, actuarially 
things we have seen coming for a long time. And I will never 
forget, in my first Budget meeting, Chris Van Hollen said the 
thing we are lacking most is political will.
    We were generating record revenues pre-COVID, but were at 
record levels of spending. And in all other places that work in 
this country, from households, which are laughed at when you 
use that analogy, school board, which I have been on, State 
government, especially running a business, there is 
accountability. And we have none of that here. We have got a 
Budget Committee where I do not think we have actually done a 
budget that we have adhered to in over 20 years. So you have 
got a lot, I think, to work on.
    I would also cite that, regardless of the tax rate in this 
country, we basically had revenues in a group of about 17 
percent of Gross Domestic Product (GDP); spending has been 
closer to 20. So I do not think you can keep this place healthy 
unless you look at the spending side of it.
    Health care, I have been the loudest Senator on reforming 
it. It is a broken industry. I agree with the Chairman on that. 
But before we throw more Government at it, I would like to see 
transparency, competition, engaging the health care consumer, 
things that would fix it to make what we pay for through the 
Government for health care and the private sector a better 
value.
    Is that something that you would work with me on?
    Ms. Tanden. Absolutely, Senator. I want to really just note 
issues of health care costs in the country, per capita costs 
are very high in the United States. It is one of the reasons 
why our health care system is so expensive. And I would just 
note to you that, you know, the issue of transparency and 
competition amongst large, concentrated interests in the health 
care system is a big challenge. Market concentration within 
health care is a big challenge, as well as the fact that we do 
not have transparency around pharmaceutical costs, hospital 
costs, and work in this area can have a huge impact.
    If you go back to 2010, CBO projected that we would be 
spending 6.4 percent of GDP on Federal health care costs. It 
actually was 5.4. That is a savings of over $1 trillion over 
the last decade from some of the reforms around bundling and 
other issues.
    So I would just say I would look forward to an opportunity 
to work with you on issues around price transparency, 
particularly in pharmaceuticals and market concentration.
    Senator Braun. Thank you.
    Chairman Sanders. I apologize, but I am going to try to 
keep people to 5 minutes, because we have a number of folks who 
want to speak and we have a 12 o'clock impeachment engagement.
    Ms. Tanden. And my apologies.
    Chairman Sanders. No, not at all.
    All right. Senator Stabenow is going to talk to us 
virtually.
    Senator Stabenow. Thank you very much, Mr. Chairman, and 
congratulations to you, Senator Sanders, and to Senator Graham. 
I look forward to working with both of you on this Committee. 
And to Neera Tanden, Ms. Tanden, congratulations on your 
nomination.
    I might just say as an editorial comment, when you were 
asked to respond to what would be your mean tweets over the 
years, that we have endured 4 years of the ultimate mean 
tweets. I know we were all thinking that. And certainly I do 
not want to hold you to a higher standard, but we certainly 
want to turn the page on how we move forward together and wish 
we had seen those comments consistently over the last 4 years. 
But welcome. Welcome, welcome, welcome, and I want to focus, 
first of all, on something I have spoken with you about, and 
that is strengthening our Buy American Act and the jobs that 
can come with that. And I know this is a priority for you; it 
is a priority for President Biden. I am very excited about 
that, that we ensure that the Federal Government spends 
taxpayer dollars on American products that are made by American 
workers.
    What we are seeing now is that we need to strengthen those 
laws and, frankly, close some of those loopholes. Over the last 
years, due to loopholes and outright noncompliance, Federal 
agencies have bypassed Buy American Act provisions in order to 
purchase products made by foreign entities without good 
explanations for why they are doing that.
    Two years ago, my office issued an oversight report that 
between 2008 and 2016, Federal agencies spent over $92 billion 
on foreign contracts because of loopholes, and the Department 
of Defense was one of the main drivers of foreign contracts. So 
we were bolstered by the Inspector General for the Department 
of Defense at the time, which found numerous instances of 
noncompliance with the Buy American Act and Berry Amendment, 
and this is jobs, this is American jobs.
    So I am so glad to see President Biden take aggressive 
action through an Executive order within just his first week on 
Buy American requirements, and I appreciate what that means as 
well for so many small and medium-sized manufacturers like we 
have in Michigan.
    But my question is this: His Executive order is a great 
first step, but do you believe that Congress has a role to play 
in this area in terms of ensuring Federal taxpayer dollars are 
used for American industries, American jobs? And if so, what 
additional steps can Congress take to bolster our shared goal 
of strengthening Buy American laws?
    Ms. Tanden. Senator, thank you so much for the question and 
for your leadership on the issue of Buy America. I would say 
that it is always the case with Executive actions, you know, 
they can be limited from administration to administration. So 
to set permanent policy, that is really an area for Congress, 
and so I would welcome the leadership of Congress.
    You are absolutely right that there have been many waivers 
granted in the last several years by agencies, and part of the 
Executive action is to publish those waivers so that there can 
be real accountability around issues around Buy America. And it 
can also provide information to domestic manufacturers about 
how they can better compete in the future.
    So I would really welcome an opportunity to work with you 
to make these policies permanent and welcome ideas from this 
Committee about the Buy America provisions. Obviously, one of 
the aspects of the Executive order is to have a Make It in 
America Office within OMB within the Office of Federal 
Procurement. So I would welcome ideas from you and other 
members of this Committee.
    Senator Stabenow. Well, thank you so much, and, in fact, I 
will be soon introducing legislation with my Budget Committee 
friend and colleague Senator Braun that is going to make much-
needed reforms in the Buy American Act. So we look forward to 
working with you. There is accountability, tightening up some 
of the waivers, also training, also making sure that basically 
we are doing everything possible to bring those jobs, that 
manufacturing, and all the things that we can do to make things 
and grow things back to America. I am excited about what we can 
do together and very much am excited about your having the 
opportunity to serve in this role, Senator. Congratulations.
    Ms. Tanden. Thank you, Senator.
    Senator Stabenow. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Stabenow.
    Senator Toomey via video. Pat?
    Senator Toomey. Thank you, Mr. Chairman.
    Ms. Tanden, many people, myself included, have been 
critical of Donald Trump for casting doubt on the legitimacy of 
the 2020 election that he lost. You yourself have a long list 
of statements casting doubt on the legitimacy of the 2016 
election. In January of 2017, you tweeted, and I quote, ``Why 
does he''--meaning Donald Trump--``lie about this? Because he 
knows people have intuitive sense, Russians did enough damage 
to affect more than 70,000 votes in three States.''
    The 70,000 votes certainly appears to be a reference to 
Hillary Clinton's losing margin in the three States of 
Michigan, Pennsylvania, and Wisconsin, which would have 
resulted in her victory had she won those States.
    You also tweeted, and I quote, ``Why would hackers hack 
unless they could change results? What is the point?''
    So these are just two of the statements that you have made 
that certainly undermine the faith and the integrity of the 
2016 election. So let me just ask you directly: Can you tell me 
this morning that you believe that Donald Trump was 
legitimately elected President in 2016 and his Presidency was 
legitimate?
    Ms. Tanden. Absolutely, and I said that on November 13, 
2016, so immediately after the election, I said President Trump 
was duly elected and that he legitimately won the election 
immediately after the election itself.
    Senator Toomey. Okay. But after that, you subsequently 
suggested that the Russians manipulated the results in the 
three States that were decisive, so I am----
    Ms. Tanden. No, no, I----
    Senator Toomey. --glad to get clarification----
    Ms. Tanden. My apologies, Senator.
    Senator Toomey. We get very few minutes. Let me just run a 
couple of things.
    Following up on Senator Graham's question on school choice, 
you made the point that wealthy families have access to private 
education, which is exactly correct. It is also the case that 
in many, many school districts--Philadelphia, most across 
Pennsylvania--the average expenditure per student in the public 
system is greater than the cost of educating kids in many of 
the private schools, especially Catholic but including others 
in those systems. If we gave parents the money that we force 
them to utilize through the government-run schools, if we gave 
the parents that money to choose a school for their child, that 
school would have to be accountable to the parents, wouldn't 
it?
    Ms. Tanden. Sir, I think one of the challenges with private 
schools in other areas is broad accountability, but I do not 
take away from the fact that wealthy parents can be 
accountable--can hold schools accountable.
    Senator Toomey. Right, but the point is that if you were 
to--if we could pass school choice, we would give poor and 
middle-income families the same choice that wealthy families 
have today.
    Ms. Tanden. Senator, I would----
    Senator Toomey. Let me just--I have got very little time. I 
just have a quick question on unemployment insurance benefits. 
If unemployment insurance pays people more not to work than 
they can make by going to work, does that have any incentive at 
all on their inclination to go back to work?
    Ms. Tanden. Senator, there have been several studies over 
the last year of this phenomenon, of this question of whether 
the unemployment levels of support is discouraging work, and 
they have found that actually people are more concerned about 
their personal safety, and that is why they are--we have 
discouragement of work. That is the analysis. I will always be 
guided by facts and evidence on these questions.
    Senator Toomey. But you did not answer the question. The 
question is: Do you think if a person can make more money by 
not working than they can make by working, does that affect 
their incentive to go back to work?
    Ms. Tanden. I would say that we should really look at why 
people may not be working, and it may be because of concerns 
about safety during a global pandemic.
    Senator Toomey. Okay. Last question for you. You have been 
an advocate for free college for, I guess, middle-income folks. 
It is the case that college grads on average make nearly $1 
million more over the course of their lifetime than non-college 
grads. How is it fair to a blue-collar worker who did not go to 
college to have to contribute tax dollars to cover the cost of 
tuition of someone who is going to make $1 million more on 
average than he or she makes?
    Ms. Tanden. I would say broadly, Senator, that you could 
extend that argument for high school or other forms of 
education, and we all benefit----
    Senator Toomey. We require----
    Ms. Tanden. --from a system in which people have access to 
good quality education.
    Senator Toomey. That is not true. We require people to go 
to high school, at least through the age of 16, and virtually 
everybody does go through high school. So I have to--my time 
has expired, but thank you.
    Thanks, Mr. Chairman.
    Chairman Sanders. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and 
congratulations on assuming the gavel here. I look forward to 
working with you and Senator Graham.
    Ms. Tanden, welcome. Good to have you here. I am going to 
give you two presents today, and I am going to describe them 
both to you. The first one is going to be this graph, which I 
think you have seen before. As you will recall, in 2010 the 
Budget Committee, off of CBO information, did an estimate of 
what Federal health care costs were going to be.
    Ms. Tanden. Yes.
    Senator Whitehouse. And that is this top line right here.
    Ms. Tanden. Yes.
    Senator Whitehouse. But we passed the Affordable Care Act 
back here, and what happened actually is that health care costs 
came down substantially below that projection. So, again, 2020, 
did another prediction, and based off the actuals, this is that 
prediction. If you simply move that extrapolation to what was 
originally predicted, so it is apples against apples here, you 
will see that in the next decade, 2020 to 2030, the difference 
between what was originally projected and where we are on 
health care spending saves over $5 trillion. No benefits were 
cut. Nobody got taken away their right to have some procedure. 
I think that what happened is that we changed the way we did 
business in health care. We set up the Center for Medicare and 
Medicaid Innovation (CMMI), the Center for Innovation. We set 
up the accountable care organizations that many providers have 
profited from. Proudly, the two best are probably in Rhode 
Island--Superscores, so a little home-State props there. And we 
have helped move the health care system off the fee-for-service 
treadmill.
    I want to give you this and I will give you this because I 
want you every day you are at your job to be thinking of what 
more can we do that got us that $5 trillion in savings. I 
fought constantly with the Obama administration about things 
that they did that would have actually damaged this process.
    Ms. Tanden. Yes.
    Senator Whitehouse. And in the Trump administration, there 
is no point even having that conversation. But now I think we 
have got enough of a record that it is really worth fighting to 
figure out, because in these Accountable Care Organizations 
(ACO) in Rhode Island, you have got happier customers, you have 
got better care, you have got more support. It is not just the 
triple aim win. It is like win, win, win, win, win across the 
board, and they are sending checks back to Medicare for the 
savings. So let us work on that, huh?
    Ms. Tanden. Absolutely. I mean, that is what I was 
referring to with Senator Braun, of the $1.4 trillion----
    Senator Whitehouse. Yeah, I am kind of a segue to Senator 
Braun on that. I got that.
    So, second thing, this volume, this is a bunch of reports 
warning of economic crash due to unconstrained climate change. 
Some are from like Freddie Mac, which has warned that coastal 
property is vulnerable to a crash worse than the 2008 mortgage 
meltdown that would cascade through the whole economy because 
of the additional threat of sea level rise and storms and what 
that does to insurance and what that does to a 30-year mortgage 
and all of that. But it is other groups as well. It is Moody's. 
It is the Bank of International Settlements. It is Standard & 
Poor's. It is McKinsey. It is BlackRock. There is a report by a 
Nobel Prize-winning economist that he filed under oath and 
subject to cross-examination in all of that.
    In February of 2019, I sent this to every single one of my 
colleagues here in the Senate--with very little effect, 
apparently--but I want you to be aware of it, and I would like 
you to comment briefly on how seriously you at OMB are going to 
take these warnings. If there is a crash from the carbon bubble 
bursting, if there is a crash from coastal property values 
collapsing, it will have been the most warned of crash in 
history. And what are we going to do about it? And do you take 
these warnings seriously?
    Ms. Tanden. Senator, I absolutely take them seriously, and 
the President himself recognizes the deep, cataclysmic crisis 
of climate change. But I would also say I am really excited by 
the possibility--if I am privileged enough to be confirmed, I 
am excited by the possibility of taking into account the cost 
of inaction on climate and the impacts of what the Federal 
Government is doing by its actions and inaction on climate and 
the economic impact of those decisions over time.
    As you so clearly stated, markets, insurers, people who are 
assessing----
    Senator Whitehouse. Not greenies. Hard-eyed, flinty 
economic people are warning.
    Ms. Tanden. Wall Street Banks, et cetera, are all taking 
into these challenges.
    Senator Whitehouse. Thank you.
    Chairman Sanders. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. I did come back 
and one of the reasons is I wanted to express to you the fact 
that I really do appreciate the fact that you want to use this 
Committee, have open, honest debates. I do not think we use 
numbers enough around here. I realize I am an accountant, but 
we really do need to look at facts and figures.
    One of the things I want to throw out on the table here, 
this is from an article that Phil Gramm wrote for the Wall 
Street Journal. I think we realize he is pretty good with 
numbers and has his facts straight, but in 2020, last year, the 
average household in the bottom 20 percent of earnings got 
$45,000 in transfer payments. Now, I would imagine those things 
are tax-free.
    Now, I think we all agree--I think you start with, you 
know, what do we agree on? We all realize people are hurting 
and people need financial help. And there has been a lot of 
financial help, $4 trillion worth. My concern--and I think this 
is shared by not only Phil Gramm but Jason Furman and Lawrence 
Summers--is the potential of overheating our economy with 
another $2 trillion when the per capita disposable income is up 
5.5 percent; savings, $1.6 trillion higher last year than 2019; 
private business up 25 percent; Federal Reserve is estimating a 
4.2-percent growth rate for this year; International Monetary 
Fund (IMF) just increased their estimate to 5.1 percent.
    So, listen, I realize we had a natural disaster, COVID, in 
2020, but there is so much pent-up demand, so much excess 
savings, it is just going to be coming, you know, bursting 
forth in economic activity, and we do need to be concerned 
about overheating our economy.
    In addition to that article and some other articles written 
by, as I mentioned, Jason Furman and Lawrence Summers, Internal 
Revenue Service (IRS) just came out with their 2018 tax data, 
and I have got the Tax Foundation summary of that, Ms. Tanden. 
They have got some interesting notations on what the IRS 
presented.
    The first one was in 2018, the first year after the Tax 
Cuts and Jobs Act, the decrease in taxes paid was $65 billion. 
Now, the static score on the tax plan was $1.5 trillion. If you 
just multiply that times 10, that would be a reduction in 
revenue of about $650 billion. So I would argue that those of 
us that supported that, because we were looking for economic 
growth to make up for that static revenue loss, dynamic 
scoring, I think this indicates that we were maybe on the right 
path here, because it was really going to be $1.5 trillion, and 
you would think that revenue loss would have been $150 billion 
rather than $65 billion.
    Would you kind of agree with that assessment?
    Ms. Tanden. Senator, I would actually have to look at that 
data. One of the concerns about the tax cut was that it 
disproportionately impacted higher-income people and used 
deficit spending to address it at a time where we were not 
facing an economic crisis. So I would have to look at that 
data.
    There is other data, like business investment did not 
increase after the law. Some of the promises around wages did 
not follow through. But I obviously would welcome looking at 
that analysis.
    Senator Johnson. One thing I think I agree with Senator 
Sanders on is I am concerned about growing wealth disparity in 
this country. But I think we also have to look at it honestly. 
Other work that Senator Gramm has done is oftentimes when we 
look at that, we look at pre-tax income and we look at income 
before benefits. And when you add benefits, like $45,000, and 
you take away taxes, that disparity is a lot closer than what 
it looks before taxes and before benefits. So we need to look 
at that honestly. And I realize this is an old survey, but it 
was done in 2012 for The Hill and really asking the right 
question when it comes to what the public's opinion is of tax 
rates. I know Senator Graham was talking to you earlier about 
that. Oftentimes you think the rich ought to pay more, and 
people go, ``Yeah, you know, as long as somebody else is paying 
more, I am all for it.''
    But then you ask a fairer question: What should be the top 
tax rate on any dollar of income for people making over 
$250,000? And here are the results: 61 percent thought it ought 
to be 25 percent or less; 75 percent thought it ought to be 30 
percent or less; only 4 percent thought it should be--actually, 
6 percent should be 40 percent or higher.
    I think Americans are pretty fair. They realize we all need 
to pay a fair tax rate, but at the same time, we need to 
provide incentives for economic activity so people can invest 
in businesses and create jobs.
    So do you kind of agree with that assessment, that kind of 
a 30-percent top tax rate seems to be pretty fair to the 
American public?
    Ms. Tanden. Well, I would not--you know, I will take the 
data that you are offering. I would also note, though, that the 
Tax Code has many ways in which upper-income people can avoid 
taxation, stepped-up basis, you know, capital gains is taxed at 
a very different rate. So I would just note that what people 
are actually paying and what their income rate paying is not 
the same. And so what they are actually paying----
    Senator Johnson. And I am all for tax simplification and 
tax rationalization. That makes sense.
    My final point is the top 1 percent made 20 percent of the 
income, and they paid 40 percent of the taxes, a 1.9-percent 
ratio. Thanks.
    Chairman Sanders. Senator Warner will join us on video.
    Senator Warner. Thank you, Mr. Chairman. And let me first 
of all say that it is great to see you, Neera, and let me say 
to my colleagues I have worked with Ms. Tanden for years. We 
have not always agreed, but she is incredibly smart, she 
engages. I would say to my Republican colleagues you will not 
find a smarter, better partner than Neera Tanden and someone 
that I hope you will through this confirmation process, you 
know, give her the benefit of the doubt. She would be, I think, 
a great OMB Director, and I look forward to voting for her and 
confirming her.
    Normally in these settings I would launch into my whole 
future work and how we fix capitalism issues. I am going to do 
a little home cooking on a couple of issues, Neera, on my 
questions. So here is that. I have got two or three I would 
love to get through.
    One, one of the things that is really important to the 
Commonwealth of Virginia is the Army Corps of Engineers work 
particularly around our new starts in terms of harbor 
improvements. Over the last few years, we have seen the Army 
Corps of Engineers civil works program, which has been 
extraordinarily bipartisan, a thorough review of projects come 
forward, get evaluated, and then on a basis of points, usually 
get added into that precious new start category.
    Unfortunately, over the last couple of years, we have seen 
that process politicized. We have seen a project, for example, 
in my State, Norfolk Harbor, which has far and away over the 
last 2 years, particularly in the last year, clearly been 
qualified as the top project to get funded under any kind of 
objective analysis. Then at the 11th and a half hour, that 
objective analysis was thrown out the door by the previous 
administration's OMB, and a political process took over. So I 
hope that you will be willing to conduct a full review of the 
Army Corps work plans to make sure that we can get back to a 
fair evaluation. We sometimes know the Army Corps of Engineers 
operates on its own, kind of a separate branch of Government, 
but in this case, you know, the review process has been 
thoroughly vetted, both parties generally agree with it, and we 
should not have at the 11th hour projects that suddenly appear 
magically on the list and trump over all of the projects that 
have been waiting patiently making their cases. So I hope you 
will be willing to commit to that kind of review process and 
get it back to a fully nonpartisan, objective review.
    Ms. Tanden. Absolutely, and I would say that, if I am 
privileged to be confirmed, I will commit to every member of 
this Committee that the work we do at OMB will be nonpartisan 
guided by facts and evidence, and I will look forward to 
working with you on this particular question.
    Senator Warner. Thank you so much.
    Another area that is bipartisan, I know the previous 
Treasury Secretary, one of the areas that he regretted that we 
did not more fully address in the final package, and that is 
the whole effort of upgrading the technology capacity of the 
Federal Government. The Technology Modernization Fund, which 
President Biden has at least proposed, I believe, $9 billion 
put in to make sure that we can upgrade our technology. You 
know, part of that ought to be at least $1 billion to the IRS.
    Some of us on this Committee have different views about who 
ought to qualify for the stimulus checks going out. I strongly 
believe checks ought to go out. I think they ought to be 
targeted in a fairer way. But part of the challenge is I have a 
lot of folks in my State and I am sure every Senator can 
recount these stories where there are still people, because 
they have not gotten the 2019 tax returns done in a timely way, 
they did not receive the benefit from the last set of stimulus 
checks we did. We have not gotten everything validated.
    You know, my fear is that there are already efforts by some 
up here to take away that necessary long-term, I would call it, 
capital investment in upgrading our Federal Government 
technology, in particular an emphasis on IRS technology. This 
would clearly come under your purview as----
    Ms. Tanden. Yes.
    Senator Warner. --OMB, and we are going to need a fighter 
to make sure that--we all complain about the inefficiencies in 
the Federal Government, but when our technology is 20 years 
old, we should not be surprised at how----
    Chairman Sanders. Thanks. Thanks, Mark.
    Senator Warner. Can you address that?
    Chairman Sanders. I think not because we have to, Mark, 
just get to a lot of Senators to make the 12 o'clock 
impeachment trial
    Senator Warner. Okay.
    Chairman Sanders. I apologize.
    Ms. Tanden. I will just commit to----
    Senator Warner. If you could take that for the record. 
Thank you.
    Senator Warner. Thank you, Bernie.
    Chairman Sanders. Thank you, Mark.
    Senator Scott.
    Senator Scott. Thank you, Chairman Sanders. Thank you for 
hosting this hearing.
    Ms. Tanden, in an op-ed you published last year, you said 
now is not the time for policy holders to worry about rising 
deficits and debt as they consider what steps to take in 
regards to the coronavirus. We are sitting on $27 trillion 
worth of debt, and the deficit going forward looks like it is 
going to continue, and we are starting to see long-term 
interest rates go up. They are still low, but they are going 
up.
    So what is your perception of how much debt we can have? 
And do you have concerns about the amount of debt we have and 
the fact that long-term interest rates are starting to move up?
    Ms. Tanden. Senator, I would say I very much appreciate the 
bipartisan action in the Congress, amongst this Committee and 
the Congress to address the COVID crisis. I also--address the 
COVID crisis without contracting the economy by having pay-
fors. I mean, it has been deficit financed, and that has been 
bipartisan, and the crisis continues.
    We should absolutely monitor interest rates. It is the case 
that interest rates have remained low. They have remained low 
in 2017; they have remained low in 2018. And, in fact, you 
know, when we had relatively low unemployment, interest rates 
remained low. We obviously have to monitor that very carefully.
    We should also recognize, though, that the Fed has tools 
for high interest rates. It does not have tools for 
expansionary economic policies any more. It essentially cannot 
lower rates any more. It could increase rates.
    I do think we should--it is incumbent upon all of us as 
policymakers to monitor these issues very, very closely, but I 
would also say that our unemployment numbers from Friday 
demonstrated that we still have a lot of economic pain, and in 
this moment we do have to ensure strong economic recovery, 
which over the long run would make us stronger--it would put us 
in a better position to address deficit issues. But as a matter 
we should all be concerned about long-term fiscal 
sustainability.
    Senator Scott. So do you have a number that we should not 
go above? Is $30 trillion too much or $35 trillion? If you look 
since George W. Bush was elected President, the unbelievable 
increase in debt, if we continue on that path, we are not just 
talking about $30 trillion or $35 trillion. We are talking 
about unbelievable amounts of debt here. And the 50-year 
average for long-term rates is over 6 percent. I mean, that 
would be a $1 trillion increase in interest costs for the 
Federal Government a year.
    Ms. Tanden. Absolutely. I mean, I did serve towards the end 
of the Clinton administration when we had a surplus. At that 
time our revenues were 20 percent of GDP, and our spending was 
20 percent of GDP, and that is basically how we managed our 
surplus. So I recognize that we have to be concerned about 
long-term health. The case is that over the 10 years, the next 
10 years, we do see increasing deficits towards the end from 
issues like the aging of the people, and we do need to manage 
those.
    I think the data that I am most focused on in terms of debt 
is the cost of borrowing itself. Now the cost of borrowing has 
declined because interest rates are so low. You are absolutely 
right, though, that we face high interest rates. That cost goes 
up. So that is an area where I think we should monitor closely, 
but in this particular moment, the concerns I think are 
significant about scarring in the economy and basically growing 
at a low level for too long. If you look at CBO's analysis, I 
mean, they say we would not--without further action, we would 
not get back to pre-pandemic levels with our GDP for several 
years.
    Senator Scott. Thank you.
    In 2012 you said, ``If we are going to have a deal to 
address long-term deficit reduction, we need to put both 
entitlements on the table as well as taxes.'' So can you 
address what you anticipate with regard to that? You know, that 
the Medicare Trust Fund and the Social Security Trust Fund are 
going insolvent over the next few years, and so what would you 
do?
    Ms. Tanden. So I would say just about my 2012 comment, that 
was at a time where people were not putting revenue on the 
table, and so I was making the case that we should have revenue 
as part of the table--as part of the discourse. The President 
has proposed--as I said earlier, the President has proposed 
lifting the payroll cap to address Social Security solvency for 
families over $400,000.
    You know, I think there are a range of ideas here. I do 
think we should recognize how important the benefit structure 
of these programs have been as a lifeline for needy families, 
particularly in this crisis. So as we think through how we 
address them in the long term, I would welcome a bipartisan 
conversation about that. The President has his own proposals. I 
do think on the Medicare Trust Fund issue, the Medicare Trust 
Fund solvency was expanded dramatically by many Affordable Care 
Act (ACA) reforms, and there are many areas we can build on in 
that area as well.
    Senator Scott. Thank you.
    Chairman Sanders. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman, and 
greetings, Neera. Great to have you here. I will try to get 
through a whole bunch of questions very quickly.
    Will you make sure that in the budget we fund the 
Interagency Task Force on the Reunification of Families?
    Ms. Tanden. Absolutely, Senator.
    Senator Merkley. And will you take a close look at rules 
the Trump administration put forward that were trying to 
undermine the Flores Settlement Agreement which required the 
humanitarian treatment of children?
    Ms. Tanden. Yes, we will absolutely look at those rules.
    Senator Merkley. Thank you.
    In the past, OMB, particularly the Office of Information 
and Regulatory Affairs (OIRA), has really delayed rules. It has 
been kind of a place where rules go in and nothing happens. An 
example would be the vaping rule. And as a result of inaction 
for years, we had an epidemic of addiction in new forms. Great 
for the tobacco industry, terrible for American health. Will 
you make sure that we do not have OMB become kind of the 
obscure pit that things fall into and we can never get them out 
again?
    Ms. Tanden. Yes, and I think that is one of the reasons for 
the President's Executive memorandum, which is to really 
focus--have OIRA focus on general welfare, public good.
    Senator Merkley. Great. And, also, I had experiences in the 
past where we appropriated funds for particular things. One was 
to rebuild villages that had been wiped out by dams on the 
Columbia River. We had worked with the Corps of Engineers to 
get the right language and so forth. Mr. Mulvaney then said 
basically, I do not care about rectifying these historic 
wrongs. I am going to just block the money from ever going out 
the door.
    Will you be fair to Democrats and Republicans alike on 
issues that have been passed by legislation?
    Ms. Tanden. Absolutely, Senator, and it is my focus to not 
be concerned about the party affiliations of people asking 
questions and the need to put appropriate--properly appropriate 
and apportion funding.
    Senator Merkley. Thank you. And OIRA has not always used a 
cost-benefit analysis that incorporated the cost of carbon and 
damaged the externality, if you will, the negative externality. 
Is that something you can help address?
    Ms. Tanden. Absolutely, and I would say that we are 
committed, as I said earlier, to internalize the cost of 
carbon, the cost of inaction, and the cost of action as well.
    Senator Merkley. Great. And the President has indicated 
support for 40 percent of green Federal investments to go to 
environmental justice communities, those who have been left 
behind before, those who are suffering transition from fossil 
fuels to renewable energy. How will you envision OMB's role in 
tracking that and targeting that, trying to make sure we help 
communities that have been previously left behind, from fossil 
fuel communities to urban inner-city communities?
    Ms. Tanden. Thank you so much, Senator. OMB will play a 
critical role in ensuring that we keep our commitment in how we 
are allocating those dollars and how agencies themselves are 
allocating dollars to make sure that they go to communities 
that have been left behind, tribal, as you mentioned, 
communities of color.
    Senator Merkley. And when it comes to how OMB interacts 
with the power of the Federal Government to address student 
debt, I know you mentioned this before I got into the room, but 
I would like to just hear again how you envision OMB can help 
drive solutions to the problem of massive student debt, 
something many other developed nations are saying, ``Hey, it is 
so important to the individual's life and to our economy. We 
want to make sure people have a track to be able to acquire an 
upper education for jobs that require it.'' Do you see that as 
important? And do you see debt as a problem? And how can OMB 
help?
    Ms. Tanden. Great. I do see that as a central problem. I 
will say I went to UCLA. It is a public university in a State 
where they recognize how it is a public good. But it is also a 
good for the country. So the President has proposed an agenda 
that tries to redress student debt and the massive levels of 
debt that young people are taking on, and that is a deep--that 
is not just a challenge for those people, but it obviously 
hurts economic growth. It hurts their ability to purchase a 
home. It hurts their ability to be economically mobile.
    So I know there is a rich, robust discourse about Executive 
action versus legislative steps. The President has supported 
legislative steps to address student debt and reduce student 
debt, and particularly in this crisis, eliminate student debt 
where we can.
    Senator Merkley. Thank you very much. I so appreciate you 
are willing to bring your vast set of experiences in different 
positions in a broad range of issues to bear on a critical 
agency to help our Nation build back better. Thank you.
    Ms. Tanden. Thank you so much.
    Chairman Sanders. Thank you, Senator Merkley.
    Senator Kennedy.
    Senator Kennedy. Ms. Tanden, congratulations. I think we 
are both aware how powerful the OMB position is. You will touch 
on just about every social and economic policy.
    You are probably also aware that we produce--``we,'' 
meaning the United States--about 2,000 metric tons of nuclear 
waste every year. And we have got it stored ``all over hell and 
half of Georgia,'' I think about 80 different locations. It is 
dangerous. I would like your personal thoughts, not the 
President's thoughts but your personal thoughts, about what we 
ought to do about that.
    Ms. Tanden. I have studied various issues like Yucca 
Mountain and other issues around nuclear waste, and I think the 
challenge around nuclear power, personally my perspective is 
that nuclear power is cleaner, when we are thinking about 
greenhouse gas emissions----
    Senator Kennedy. Yes, ma'am, excuse me for interrupting. I 
hate to do this.
    Ms. Tanden. I am sorry.
    Senator Kennedy. But what do you think, if anything, we 
ought to do about the nuclear waste being dispersed around the 
United States?
    Ms. Tanden. I think we should be taking active steps to 
ensure the security of nuclear waste----
    Senator Kennedy. Anything else? We want it to be secure. We 
can agree on that. Anything else?
    Ms. Tanden. Sir, I am happy to work with you and your 
office on concerns you have about nuclear waste disposal.
    Senator Kennedy. All right. Let me ask you this: Is it not 
true that you have told a major news organization in this 
country that you support moving that waste to Yucca Mountain?
    Ms. Tanden. I do not believe I have, actually.
    Senator Kennedy. Okay.
    Ms. Tanden. But I am happy to examine some statement I have 
made in the past.
    Senator Kennedy. Well, you are under oath. Are you saying 
you did not say it or you do not remember?
    Ms. Tanden. I have to tell you I do not remember making any 
comments about Yucca Mountain, but in my long career I may 
have, so I am happy to--I do not know--I am not remembering as 
of this moment.
    Senator Kennedy. Okay. All right. Let me ask you about 
Senator Sanders' line of questioning. You were a very 
aggressive fundraiser for your think tank, and I am not 
suggesting you did anything wrong. Please do not construe my 
remarks as suggesting that. But there will be a perception--I 
am not saying it is reality, but as we know, in Government and 
politics perception matters. But there will be a perception 
that if you took Wall Street, given the money you have raised 
from them, if you took Wall Street, turned them upside down and 
shook them, you would fall out of their pockets.
    How are you going to deal with that, I mean, when Wall 
Street comes calling and you are at OMB?
    Ms. Tanden. Senator, at the Center for American Progress, 
we proposed a financial transaction tax. We proposed higher 
regulations of Wall Street. We proposed dealing with carried 
interest. Many, many, many years ago, we proposed a whole 
series of policy proposals that would restrict the power of 
Wall Street. I believe Wall Street has too much power in our 
political discourse, and I have said that multiple times. I 
have said that in every role, so----
    Senator Kennedy. Okay. Let me interrupt you, because I have 
got to go to another subject. I appreciate your answer.
    I have to tell you I am very disturbed about your personal 
comments about people, and it is not just one or two. I think 
you deleted about a thousand tweets. And it was not just about 
Republicans. And I do not mind disagreements in policy. I think 
that is great. I love the dialectic. But the comments were 
personal. I mean, you called Senator Sanders everything but an 
ignorant slut.
    Ms. Tanden. That is not true, Senator.
    Senator Kennedy. And when you said these things, did you 
mean them?
    Ms. Tanden. Senator, I have to say I deeply regret my 
comments----
    Senator Kennedy. I understand that, but when you said 
them----
    Ms. Tanden. --and I feel badly about them.
    Senator Kennedy. --did you mean them? I understand you have 
taken them back, but did you mean them?
    Ms. Tanden. I would say the discourse over the last 4 years 
on all sides has been incredibly polarizing----
    Senator Kennedy. I am asking about yours. Did you mean 
them?
    Ms. Tanden. I really feel badly about them, Senator.
    Senator Kennedy. Did you mean them?
    Ms. Tanden. I feel badly about them.
    Senator Kennedy. Did you mean them when you said them?
    Ms. Tanden. I mean, I would say social media is----
    Senator Kennedy. Did you mean them when you said them?
    Ms. Tanden. I feel terribly about them.
    Senator Kennedy. Did you mean them when you said them or 
were you not telling the truth?
    Ms. Tanden. I mean, I feel badly. I look back at them. I 
said them. I feel badly about them. I deleted tweets over a 
long----
    Senator Kennedy. Are you saying that because you want to be 
confirmed?
    Ms. Tanden. No. I felt badly about them, and----
    Senator Kennedy. Did you mean them when you said them?
    Ms. Tanden. Senator, I must have meant them, but I really 
regret them.
    Senator Kennedy. I want the record to reflect that I did 
not call Senator Sander ``an ignorant slut.'' Okay?
    Chairman Sanders. Thank you. I do not know how I should 
take that, Senator Kennedy.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. I am excited about 
your leadership. And to Ms. Tanden, congratulations. I have six 
questions that are susceptible probably to yes-no answers, 
really short.
    If Senators of either party reach out to you or your office 
with requests for information, do you plan to respond to the 
extent possible in a timely manner?
    Ms. Tanden. Yes.
    Senator Kaine. If the Government Accountability Office 
reaches out to you or your office seeking cooperation relating 
to congressional oversight of the executive branch, will you 
direct your staff to work with them in a timely and complete 
manner?
    Ms. Tanden. Absolutely, yes.
    Senator Kaine. Will you respect the requirements and intent 
of the Impoundment Control Act and other laws that govern how 
the executive branch spends congressionally appropriated funds?
    Ms. Tanden. Absolutely.
    Senator Kaine. Would you ever facilitate the withholding of 
congressionally appropriated funds for political purposes?
    Ms. Tanden. Absolutely not.
    Senator Kaine. Do you plan to respect the expertise of the 
career staff at the OMB and follow the facts on OMB analysis?
    Ms. Tanden. Absolutely, and I believe they are a great 
asset to the Federal Government and OMB.
    Senator Kaine. Finally, should you be the OMB Director at 
the end of the administration, would you fully cooperate with 
the transition to the subsequent administration's team 
regardless of the President-elect's political affiliation?
    Ms. Tanden. Absolutely, Senator.
    Senator Kaine. I ask those questions because we have had 
some challenges in each of these areas, and I am glad to hear 
your answers.
    Thank you, Mr. Chair.
    Chairman Sanders. Thank you very much, Senator Kaine.
    Senator Van Hollen I think is with us on video.
    Senator Van Hollen. Thank you, Mr. Chairman. 
Congratulations to you, Chairman Sanders, and to Ranking Member 
Graham. I think the Budget Committee can be a central place for 
debating and discussing and acting on the big issues of our 
day.
    To Ms. Tanden, congratulations on your nomination. In 
selecting you, President Biden has picked somebody who has both 
deep and wide policy expertise and a life story that shows how 
the Government can help families when they are most in need and 
provide a springboard to success. So I look forward to working 
with you on these issues.
    I heard earlier in this debate a reference to the rise in 
per capita income over the last year, and I think it is 
important that we recognize that often references to per capita 
income can be very misleading. So, for example, if Jeff Bezos 
had moved to Baltimore City in 2020, the per capita income of 
the residents of Baltimore City would have tripled from $53,000 
a year to $175,000 a year, even though nobody was any better 
off as a result. So I hope as we debate these issues going 
forward we will remember that.
    My question relates to this tale of two economies and the 
K-shaped recovery. This is one of the reasons why it is 
necessary that we take bold action with the American Rescue 
Plan. CBO has told us that if we do not act, we will continue 
to see high levels of unemployment until the year 2025.
    So can you just talk briefly about the risks of 
undershooting here when it comes to emergency action and in 
that connection talk about the problem of long-term 
unemployment? This is something many of us are very focused on. 
We have 4 million Americans long-term unemployed, and I am 
worried as the economy does recover that we do not leave 
millions of people behind, because all the data shows that the 
longer you are out of a job, the harder it is to find one; and 
when you find one, you are often at a lower wage that you have 
to live with for the remainder of your working life. So if you 
could talk about those challenges and your willingness to work 
with us to address them.
    Ms. Tanden. Absolutely, Senator. I will just briefly say I 
think for all the statements about overheating the economy, we 
should recognize where the economy is right at this moment, 
which is we have data that any economic recovery is faltering 
with the COVID crisis. Unemployment numbers last Friday 
demonstrated that we continue to have 10 million people, some 
data suggests it is 12 million people who are unemployed--who 
are unemployed today who would not have been unemployed a year 
ago.
    And so that is a deep crisis that we need to address, and 
you are absolutely right about the K-shaped recovery. Lower-
income workers are bearing the huge brunt of this crisis, and 
that is why action is required and necessary.
    Senator Van Hollen. And can you talk about, as we go 
forward, the importance of looking at----
    Chairman Sanders. Chris, I am sorry. I have got to cut you 
off.
    Senator Van Hollen. Oh, I am sorry. Mr. Chairman, I 
understand.
    Chairman Sanders. Okay.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Chairman Sanders. Senator Padilla.
    Senator Padilla. Thank you, Mr. Chairman, and 
congratulations on the chairmanship. I look forward to working 
with you on this Committee. I will try to be brief. I had an 
opportunity to ask Ms. Tanden a few questions yesterday as a 
member of Homeland Security and Government Affairs Committee 
(HSGAC), and I appreciate the opportunity to raise a few more 
issues and questions here today. And if only there was somebody 
else who could ask if they meant what they tweeted later this 
afternoon, whether or not they have been taken back.
    But let me jump into it here. In regards to the economic 
recovery that we keep talking about and COVID, which is clearly 
the most front-burner issue of all, the State I represent, 
California, as you know, constitutes the fifth largest economy 
in the world and the largest economy of any State in the 
Nation. The saying is, ``As goes California, so goes the 
Nation.'' So we will not achieve a successful national economic 
recovery unless there is recovery in California.
    At the same time, California, and particularly Los Angeles 
County, has been the epicenter of the COVID-19 pandemic. Most 
people will agree, including most economists, that our economy 
will not recover until we get through the pandemic. I will call 
your attention to a recent New York Times article about the 
equity in which vaccine distribution, or lack of equity of 
vaccine distribution, has been made and the consequences of 
that.
    So my question is this, Ms. Tanden: Will you commit to 
leveraging the full resources of the Office of Management and 
Budget to help California get this virus under control, 
particularly when it comes to vaccine distribution?
    Ms. Tanden. Absolutely, Senator, and I would just very 
quickly say that I think it is really important that the 
administration is taking the steps to ensure that federally 
qualified health centers can provide vaccines, provide vaccines 
in places that are hard to reach, provide vaccines in places 
that are--that communities of color as disproportionately 
impacted by, and that is really important, and community health 
centers are playing a vital role. And I appreciate Chairman 
Sanders' leadership over many years on the issue of community 
health centers.
    Senator Padilla. Thank you. And, Mr. Chairman, I would love 
to submit this article for the record as well.

                   [The article appears on page 119]


    Senator Padilla. Just one other question in the interest of 
time. Ms. Tanden, we often talk about immigration in moral 
terms, and we should, and I appreciate you sharing in your 
opening statement your life story and your family's journey. 
The 11 million undocumented immigrants in this country are part 
of the backbone of many communities and our economy as well. 
They are essential workers in many cases on the front lines of 
the pandemic, from farm workers to the restaurant industry to 
the health care industry and many other sectors in between. In 
my opinion, they deserve not just safety in the workplace but 
dignity and a pathway to citizenship.
    But immigration is not just a moral imperative. It is also 
an economic imperative. I believe you are familiar with a 2016 
report from the Center for American Progress where you note 
that undocumented workers contributed $4.7 trillion to the 
United States GDP, and it has been estimated that undocumented 
immigrants specifically contribute $11.7 billion in State and 
local taxes and $12 billion in Social Security revenues 
annually.
    As our country works to recover from the pandemic-induced 
recession at the same time that the baby-boom generation is 
retiring in droves, it is clear that our Nation needs the 
economic contributions of immigrant workers now more than ever.
    So, Ms. Tanden, as the Senate takes up immigration reform 
legislation in the coming months, will you work with us and 
bring the full resources of the office to bear in helping 
illustrate the significance of immigrants and their economic 
contributions to our Nation?
    Ms. Tanden. Absolutely, Senator, and I would note that 
there has been much work done in recent years about how 
comprehensive immigration reform will ensure broader economic 
growth. I am proud of the work I have done on a bipartisan 
basis with the offices of Senator Graham and many other 
Republicans in the past on the issue of recognizing how 
comprehensive immigration reform can build--is not just a moral 
issue but an economic case, and as wages rise for people who 
have citizenship, that helps America's economy grow and grow 
more robustly.
    Senator Padilla. Thank you, Ms. Tanden.
    Thank you, Mr. Chair.
    Chairman Sanders. Thank you very much, Senator.
    I want to thank Ms. Tanden for appearing before the 
Committee today. Ms. Tanden, your full statement will be 
included in the record.
    As information for all Senators, questions for the record 
are due by 5:00 p.m. today with signed hard copies delivered to 
the Committee clerk in Dirksen 624. Emailed copies will also be 
accepted due to our current conditions. Under our rules, Ms. 
Tanden will have 7 days from receipt of our questions to 
respond with answers.
    With no further business before the Committee, this hearing 
is adjourned. Thanks, Ms. Tanden.
    Ms. Tanden. Thank you so much, Chairman Sanders.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]

         ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

    [Prepared statement, responses to written questions, and 
additional material supplied for the record follow:]

                 Prepared Statement of Ms. Neera Tanden
                 
                 
                 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 
                 


</pre></body></html>
